Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 PENETRATION TEST OF THE INDIAN
   HEALTH SERVICE’S COMPUTER
           NETWORK




   Inquiries about this report may be addressed to the Office of Public Affairs
                          at Public.Affairs@oig.hhs.gov.




                                        Thomas M. Salmon
                                     Assistant Inspector General

                                              March 2014
                                             A-18-13-30330
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
 The Indian Health Service needs to address cyber vulnerabilities on its computer
 network.

This report provides an overview of the results of our penetration test of the Indian Health
Service’s (IHS) computer network. It does not include specific details of the vulnerabilities that
we identified due to the sensitive nature of the information. We have provided more detailed
information and recommendations to IHS so that it can address the issues we identified.

WHY WE DID THIS REVIEW

Computer hackers are increasingly attempting to compromise Government systems, publish
sensitive data, and use stolen data to commit fraud. Threats to Federal agency Web applications
are continually changing because of advances made by hackers, the release of new technology,
and the deployment of increasingly complex systems. Web sites that are not secured properly
create vulnerabilities that could be exploited by an unauthorized user to compromise the
confidentiality of sensitive information. Furthermore, cyber attacks through targeted email
messages constitute the vast majority of attacks on Federal and private sector networks,
according to Federal data. These attacks could significantly impact the operations of Federal
agencies and expose sensitive data.

Previously, in 2011, we conducted a separate information technology (IT) general controls audit
of the IHS’s network security controls and found that such controls were inadequate. The
security vulnerabilities identified presented an increased risk that unauthorized individuals could
gain access to the IHS network and potentially to the U.S. Department of Health and Human
Services (HHS) network. Therefore, in June 2013, we decided to conduct further testing of the
effectiveness of IHS’s network security controls by performing an external network penetration
test. The objective of this review was to determine whether IHS network systems were
susceptible to compromise by cyber attacks.

BACKGROUND

Penetration tests are used to identify methods of gaining access to a system by using tools and
techniques that attackers use. This audit was the first of a series of OIG audits planned to
include penetration testing of HHS and its operating division’s networks.

IHS, which is 1 of 12 HHS operating divisions, provides health services directly through tribally
contracted and operated health programs and through services purchased from private providers.
The Federal system consists of 28 hospitals, 61 health centers, and 34 health stations. In
addition, 33 urban Indian health projects provide a variety of health and referral services.
Protecting beneficiaries’ and providers’ personally identifiable information and personal health
information is critical because fraud perpetrators often use stolen beneficiary or physician
identities, or both, to submit false claims to the programs.




Penetration Test of the Indian Health Service’s Computer Network (A-18-13-30330)                     1
HOW WE CONDUCTED THIS REVIEW

We assessed the IHS network’s exposure to cyber attacks by performing a penetration test of its
networks and information systems. We conducted the penetration test from June 10 through 14,
2013, with the knowledge and permission of IHS officials. We requested that IHS incident
response staff not be notified of our testing to assess the effectiveness of IHS’s intrusion
detection and response controls. Appendix A contains a summary of our audit scope and
methodology.

Risk Level Definitions for Findings

To assign risk levels (i.e., High, Medium, Low) to our findings, we used Table 3-7, “Risk Scale
and Necessary Actions,” of the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-30, Risk Management Guide for Information Technology Systems, which
describes the need for corrective actions and the relative timeframes in which they must occur
based on high, medium, and low levels of risk associated with system vulnerabilities. Appendix
B contains the table.

WHAT WE FOUND

Overall, the IHS needs to address cyber vulnerabilities on its computer network. Specifically,
we were able to obtain unauthorized access to an IHS Web server and an IHS computer.

    •   We were able to gain unauthorized access to an IHS Web server, which allowed us to
        access the internal IHS network and obtain user account and password data on the
        system, including user names and passwords to IHS databases (High Risk).

    •   We were able to take control of an IHS computer, which allowed access to the
        computer’s resources, including records in the file system (Medium Risk).

Due to the sensitive nature of the specific findings identified during our testing, only a summary
of the findings are included in this report. We have provided more detailed, technical findings to
IHS.

WHAT WE RECOMMEND

We made 6 recommendations to IHS to address the security vulnerabilities that we identified. In
general, we recommended that IHS fix the vulnerability on the IHS Web server, implement more
effective procedures to protect its computer systems from cyber attacks, and periodically
measure adherence to IHS security policies and procedures.

This report summarizes our recommendations due to the sensitive nature of the information
discussed. We have provided more detailed recommendations to IHS.




Penetration Test of the Indian Health Service’s Computer Network (A-18-13-30330)                     2
AUDITEE COMMENTS

In written comments to our draft report, IHS concurred with all of our recommendations and
described the actions they will take to implement them.




Penetration Test of the Indian Health Service’s Computer Network (A-18-13-30330)             3
                       APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We focused our audit on the IHS network and Web sites in operation during the period June 10
through 14, 2013. We did not review IHS’s overall internal control structure. We performed our
testing from OIG facilities.

METHODOLOGY

To accomplish our objectives, we prepared a Rules of Engagement document that outlined the
general rules, logistics, and expectations for the penetration test and obtained signatures from
both IHS and OIG management. Afterwards, we performed the following procedures:

      •    conducted information-gathering techniques to discover the following for IHS:

           o    network address ranges,
           o    host 5 names,
           o    exposed hosts,
           o    applications running on exposed hosts,
           o    operating system and application version information,
           o    current patch levels of the hosts and applications,
           o    structure of the applications and supporting servers, and
           o    domain name server records;

      •    conducted vulnerability analysis techniques to discover possible methods of attack;

      •    exploited vulnerabilities identified in the vulnerability analysis to attempt to gain root or
           administrator-level access to the target systems or other trusted user account access;

      •    used advanced techniques to gain access to an IHS computer system and attempted to
           gain a persistent foothold into the network and to escalate user privileges; and

      •    discussed our findings with IHS management.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




5
    A host is any device connected to a computer network.


Penetration Test of the Indian Health Service’s Computer Network (A-18-13-30330)                           4
                 APPENDIX B: RISK SCALE AND NECESSARY ACTIONS



Risk Level          Risk Description and Necessary Actions

                    If an observation or finding is evaluated as a high risk, there is a strong need
                    for corrective measures. An existing system may continue to operate, but a
High                corrective action plan must be put in place as soon as possible.
                    If an observation is rated as medium risk, corrective actions are needed and
                    a plan must be developed to incorporate these actions within a reasonable
Medium              period of time.
                    If an observation is described as low risk, the system’s designated approving
                    authority must determine whether corrective actions are still required or
Low                 decide to accept the risk.




Penetration Test of the Indian Health Service’s Computer Network (A-18-13-30330)                       5
